WAIVER

Supreme Court, U.S.
FILED

JUL 2 3 2019

SUPREME COURT OF THE UNITED STA
Supreme Court. Case No.

J5

ICE OF THE CLERK

19-31

Carol Kam, pro se

State of Texas

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

State of Texas

0 I am a member of the Bar of the Supreme Court. of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date

July 23, 2019

(Type or print) Name

D
Demetri Anastasiadis
E] Mr.

Firm

Digitally signed by Demetri Anastasiadis
Date: 2019.07.23 10:26:13 -05'00'

Demetri Anastasiad is

❑ Ms.

❑ Mrs.

0 Miss

Texas Attorney General's Office-LEDD

Address P

.O. Box 12548

City & State
Phone

Austin, Texas

(512) 463-2080

Zip
Email

78711

Demetri.Anastasiadis@oag.texi

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Carol Kam, pro se

RECEIVED
JUL 3 0 2019
OFFICE Q THE CLERK
SUPREMM COURT, U.S.

KEN PAXTON
ATTORNEY GENERAL OF TEXAS

July 23, 2019
Regular Mail
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: No. 19-31; Carol Kam, Petitioner v. State of Texas, et al.
Dear Clerk:
Enclosed please find the following document pertaining to the above styled appeal:
Waiver form -State of Texas
Should a response be requested, the response will be filed by a bar member.
Thank you for your attention to this matter.
Sincerely,
/s/ Demetri Anastasi
DEMETRI ANASTASIADIS
Assistant Attorney General
Law Enforcement Defense Division
(512) 463-2080 / Fax (512) 370-9374
DCA/dmw
Enclosure

Post Office Box 12548. Austin. Texas 78711-2548 • (512) 463-2100 - www.texasattorneygeneral.gov

